U.S. Department of Labor                               Office of Inspector General
                                                       Washington, DC. 20210




October 30, 2009

MEMORANDUM FOR:                      EDWARD C. HUGLER
                                     Senior Accountable Official for the American
                                      Recovery and Reinvestment Act of 2009




FROM:                                ELLIOT P. LEWIS
                                     Assistant Inspector General
                                      for Audit

SUBJECT:                             Recovery Act: The Department of Labor’s Plan to Ensure
                                     Data Quality in Recipient Reporting
                                     Report No. 18-10-001-01-001

The American Recovery and Reinvestment Act of 2009 (Recovery Act) requires Federal
agencies to implement an unprecedented level of transparency and accountability to
ensure the public can see where and how Recovery Act funds are being spent. The
Department of Labor (the Department) received $44.9 billion in Recovery Act funding to
provide worker training, extend and increase unemployment benefits, and assist and
educate workers and employers regarding expanded access to health benefits.

To promote accountability and transparency, Section 1512 of the Recovery Act (Section
1512) requires each recipient that received Recovery Act funds to submit a quarterly
report to the Federal agency providing those funds. This report, due not later than 10
days after the end of the calendar year quarter, must include (1) the total amount of
Recovery Act funds received from that agency; (2) the amount of Recovery Act funds
received that were spent or obligated to projects or activities; and (3) a detailed list of all
projects or activities for which Recovery Act funds were spent or obligated.1 Recipients
must report on the completion status of the project or activity and provide an estimate of
the number of jobs created and the number of jobs retained by the project or activity.
Additionally, if the recipient awarded any subcontracts or subgrants with Recovery Act
funds, the report must include information required to comply with the Federal Funding
Accountability and Transparency Act of 2006 (Public Law 109-282). The Federal

1
 If funds are “infrastructure investments made by State and local governments,” the recipient must provide such
information as the purpose, total cost, and rationale of the agency for funding the infrastructure investment with the
funds and contact information for someone at the agency if there are concerns with the infrastructure investment.



                                Working for America’s Workforce
agency which awarded Recovery Act funds must make the recipient reports publicly
available by posting the information on a website not later than 30 days after the end of
each calendar quarter. Section 1512 also requires Federal agencies to issue reporting
guidance to recipients, and directs recipients to register with a central database and
comply with other requirements issued by the Office of Management and Budget
(OMB).

OMB issued OMB M-09-21, “Implementing Guidance for the Reports on Use of Funds
Pursuant to the American Recovery and Reinvestment Act of 2009,” dated June 22,
2009. OMB M-09-21 requires Federal agencies receiving Recovery Act funds to
implement a limited data review process to identify material omissions and/or significant
errors and notify grant recipients of the need to make complete, accurate, and timely
adjustments. For Recovery Act contracts, Federal Acquisition Regulation (FAR) Subpart
4.15 – “American Recovery and Reinvestment Act—Reporting Requirements” states
that Contracting Officers (COs) will be responsible for ensuring all required data on the
use of funds are reviewed.

Departmental officials stated and provided information that it had awarded $3.7 billion of
Recovery Act funds as of September 30, 2009, through grants and contracts. The
Employment and Training Administration (ETA) had awarded 365 grants totaling $3.5
billion, accounting for 96 percent of funds the Department had awarded to recipients.
The Office of the Assistant Secretary for Administration and Management (OASAM) had
awarded 135 contracts totaling $158.4 million, and the Occupational Safety and Health
Administration (OSHA) had awarded 7 grants totaling $1.5 million. (See Attachment 1
for a detailed schedule of Recovery Act funds awarded as of September 30, 2009.)

Our audit objective was to determine whether the Department had established policies
and procedures for reviewing quarterly Recovery Act data submitted by recipients.
Specifically, we designed our audit to answer the following questions:

   1. How does the Department plan to ensure that all prime recipients have filed the
      required quarterly reports, and the required reviews of the reported data are
      conducted?

   2. Are the Department’s policies and procedures designed to emphasize the 

      avoidance of two key data problems — material omissions and significant 

      reporting errors? 


   3. Does the Department have an adequate process in place to remediate systemic
      or chronic reporting problems?

   4. Does the Department anticipate that it will be able to use the reported information
      as a tool for assessing compliance with the terms and conditions of award
      agreements, assessing risk, and determining when to release remaining funds?

The audit covered current procedures that ETA, OASAM and OSHA plan to use to
review the quarterly Recovery Act data submissions of recipients. We conducted
interviews with officials from ETA, OASAM and OSHA at Department Headquarters


                                           -2-
located in Washington, D.C., and reviewed their procedures related to recipient
reporting. It is too early to determine whether these procedures will adequately identify
and remediate omissions and significant reporting errors, or to assess compliance with
those procedures.

We did not test internal controls nor did we verify the information on the number of
grants and contracts awarded and their amounts. The information presented in
Attachment 1, “Schedule of Recovery Act Funds Awarded as of September 30, 2009,” is
included for additional information. We did not audit this information and, accordingly,
we express no opinion on it.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Results

While the Department has not issued an overall policy for ensuring the quality of data
reported by recipients, the agencies involved in awarding Recovery Act grants and
contracts (ETA, OASAM and OSHA) have developed procedures to review the
recipients’ quarterly reports.

Details regarding the procedures developed by ETA, OASAM and OSHA are discussed
below.

1. 	   How does the Department plan to ensure that all prime recipients have filed
       the required quarterly reports, and the required reviews of the reported
       data are conducted?

To ensure all prime recipients have registered with FederalReporting.gov, as required,
each DOL agency performs daily reconciliations of Recovery Act recipients in DOL
systems to those who have registered on the FederalReporting.gov website. For
Recovery Act recipients identified as not having registered with FederalReporting.gov,
the Department’s process calls for follow up to ensure registration.

ETA has developed a data quality review plan and process that establishes a chain of
accountability, roles, and responsibilities. Federal Project Officers (FPO) will review
recipient reports to ensure data accuracy, completeness, and timeliness. (See
Attachment 2 for an outline of OMB’s timeframe for key reporting activities.) At the
Regional Office level, FPOs are assigned one or more states and/or discretionary
grantees for which they are responsible. FPOs at the National Office may also be
assigned responsibility for discretionary grantees. FPOs will notify all recipients of the
requirement to register with FederalReporting.gov prior to the reporting deadline.




                                            -3-
ETA Regional and National Office Administrators have been made responsible to
ensure the timeliness and quality of the FPO reviews, and the Deputy Assistant
Secretary for Employment and Training will attest to the Department’s Center for
Program Planning and Results that the quarterly data reviews were performed. ETA is
currently drafting a set of standard operating procedures for quality assurance
purposes.

OASAM plans to use their existing contract monitoring procedures to ensure the quality
of quarterly Recovery Act data submitted by recipients. The Contracting Officer’s
Technical Representative (COTR) will review the data to ensure timeliness and
technical validity and the Contracting Officer (CO) is responsible for ensuring the
required reviews are conducted.

OSHA has assigned three staff to monitor its seven Recovery Act grants, ensure the
grantees file the required quarterly reports, and review the reports when submitted.

2. 	   Are the Department’s policies and procedures designed to emphasize the
       avoidance of two key data problems — material omissions and significant
       reporting errors?

As of September 30, 2009, ETA’s process was designed to identify material omissions
and significant reporting errors. However, OASAM and OSHA planned to approach the
issue of material omissions and significant reporting errors as the recipient reporting
begins.

ETA developed a 12-page FPO Review Tool (Tool) to provide guidance to its FPOs on
data elements considered to have potential material omissions and significant reporting
errors. The Tool does this by (1) listing each of the 42 data elements contained in the
OMB reporting framework, (2) providing information that should be included in the
recipients’ response, (3) providing “examples” of possible material omissions, and (4)
providing examples of possible significant reporting errors.

For example, the following chart is an excerpt from the FPO Tool on how to assess data
quality for the data element “Estimate of jobs created or retained:”




                                          -4-
Data element         Data Entry            Possible Material     Possible
                     Response              Omission              Significant
                                                                 Reporting Error
Description of       A narrative           [Recipient] failed    Waiting
Jobs Created         description of the    to include jobs       clarification from
                     employment            created for WIA       OMB.
                     impact of the         youth.
                     Recovery Act
                     funded
                     work….The
                     description should
                     be cumulative for
                     each quarter and
                     address the
                     recipient’s
                     workforce at a
                     minimum, and if
                     known, the
                     workforce of sub-
                     recipients….

Additionally, the Tool advises FPOs to start the data quality review early, as discussed
in OMB’s guidance. According to the Tool, FPOs will have access to Section 1512 data
in a “view-only” mode during the recipient and sub-recipient review period (days 11 to
21 of the reporting month). If FPOs start their unofficial reviews at that time, and find
possible material omissions or significant reporting errors, they have the option to notify
recipients and give them a chance to correct their reports prior to the FPO’s official
review.

On October 7, 2009, ETA conducted a video conference with all FPOs to discuss the
Tool with emphasis on potential material omissions and significant reporting errors.

According to OASAM, the CO and COTR will review Section 1512 data reported by the
prime contractor to ensure it is not misleading and does not contain material omissions
or significant reporting errors.

On September 30, 2009, OMB issued “Interim Guidance on Reviewing Contractor
Reports on the Use of Recovery Act Funds in Accordance with FAR Clause 52.204-11”
to Federal agency chief acquisition officers and senior procurement officers. The
guidance describes the requirement to review contractors’ Section 1512 reports for
significant errors and material omissions. OASAM forwarded the OMB interim guidance
to its COs. The guidance provided some examples of significant errors and material
omissions.

OSHA plans to address the issue of material omissions and significant reporting errors
when recipient reporting begins. Although OSHA officials noted the agency has historic
ties with the seven State grantees that received Recovery Act funds, they


                                           -5-
acknowledged certain risks with Section 1512 reporting. The Department acknowledged
certain risks with OSHA’s Section 1512 reporting. Specifically, the Department is
concerned that OSHA’s ARRA State recipients are reporting activities (inspections) that
are not being charged to ARRA funding. This may be due either to state requirements
on getting approval to spend ARRA funds or to the period of availability of state
matching funds. Therefore, there could be a discrepancy between the activity being
reported on the grant and the expenditures reported to support ARRA activities, and
OSHA has initiated follow up action.

On October 14, 2009, OSHA issued an 8-page Review Tool for Quarterly Recipient
Reporting detailing the National Office staff responsibilities for reviewing Section 1512
reports, inclusive of how to detect significant errors and material omissions. OSHA
instructs National Office staff to use the Review Tool in conjunction with the
FederalReporting.gov User Guide on the FederalReporting.gov’s web site.

3. 	   Does the Department have an adequate process in place to remediate
       systemic or chronic reporting problems?

ETA, OASAM and OSHA have assigned responsibility to remediate systemic or chronic
reporting problems to their FPOs, COs and regional offices.

ETA has directed its FPOs to contact grantees to ensure they submit Section 1512
reports to Federalreporting.gov on time. ETA has a system in place to identify high-risk
grantees that may have systemic or chronic reporting problems. ETA follows the
specific guidelines in accordance with 29 CFR 97.12, “Special Grant and Subgrant
Conditions for High-Risk Grantees” and 20 CFR 667.400, “Who is responsible for
oversight and monitoring of WIA Title I grants?”

If a grantee does not follow the reporting requirements, FPOs will contact them to
provide assistance. However, if repeated attempts are unsuccessful, ETA can withhold
funds or, in extreme cases, sanction grantees. To the extent the FPO identifies any data
that he/she has reason to believe is false or misleading, such finding must be submitted
to the DOL Senior Accountable Official.

OASAM’s COs and COTRs work directly with recipients for contract compliance and
reporting. In the event of any issues with compliance or reporting, the COs will work
directly with the contractors based on the guidance provided in the FAR and to ensure
the problem is appropriately resolved. In extreme cases, OASAM follows FAR guidance
49.4 -Termination for Default. Termination for Default is generally the exercise of the
Government’s contractual right to completely or partially terminate a contract because of
the contractor’s actual or anticipated failure to perform its contractual obligations.

OSHA’s Section 1512 Review Tool states that technical assistance is the first step to
remediate reporting problems. If a grantee is not cooperative, “OSHA National Office
staff must immediately inform the Director, Administrative Programs with details of the
issue. If the issue cannot be resolved internally, the Director, Administrative Programs
will inform the DOL Senior Accountable Official. All contact with the Recovery Board will
be made by the DOL Senior Accountable Official.”


                                           -6-
4. 	   Does the Department anticipate that it will be able to use the reported
       information as a tool for assessing compliance with the terms and
       conditions of award agreements, assessing risk, and determining when to
       release remaining funds?

The Department anticipates that the reported information can be used as a tool to
complement the Department's existing management controls. The Department reviewed
M-09-21 and related documents, and incorporated concepts into its planning and
guidance documents for grants. While OMB issued guidance with the express
proviso that they did not apply to contracts, the Department reported they found the
documents helpful because they provided an overview of the general process.

Additionally, the Department said it may consider using the reported information as a
means to confirm compliance with the terms and conditions of award agreements. For
example, in assessing risk and making decisions about releasing additional funds, a
grantee's or contractor's failure to report, or incorrect reporting rising to the level
of "significant reporting errors" (as defined in M-09-21), will all be assessed in the
administration of Recovery Act awards for both grants and contracts. Such problems
would result in appropriate corrective action consistent with the Department's practices,
up to termination of a grant agreement or contract.

Conclusion

While the Department has not issued an overall written policy for ensuring the quality of
Section 1512 data, the agencies which awarded Recovery Act funds have procedures
to review the reports, and the Department may use the data for making decisions on
future release of Recovery Act funds.

Each of the three agencies with Section 1512 review responsibilities — ETA, OASAM,
and OSHA — has developed processes to ensure prime recipients have filed the
required reports and to conduct the required reviews of the data. Additionally, the three
agencies have developed and implemented processes to minimize two key data
problems (material omissions and significant reporting errors), and to remediate
systemic or chronic reporting problems. Finally, the Department expects to use Section
1512 data as a “tool” to complement existing management controls and to monitor
recipients’ compliance with Recovery Act award agreements.

Two examples of “promising practices” to ensure section 1512 data quality are ETA’s
FPO Review Tool and OSHA’s Review Tool for Quarterly Recipient Reporting. Both
documents provide guidance to Federal project officers on how to find potential material
omissions and significant reporting errors when recipients submit their initial reports.
These “tools” give FPOs examples of possible mistakes for various data elements in the
recipient reports. While OASAM has not issued a similar “tool” for COs, it forwarded
OMB interim guidance which also provided examples of significant errors and material
omissions. These processes and “tools” related to reviewing Section 1512 reports have
potential to help the Department achieve the Recovery Act’s goals for transparency and
accountability.


                                           -7-
Department’s Response

In response to the draft report, the Senior Accountable Official for the American
Recovery and Reinvestment Act of 2009 stated that the audit report “is a reasonable
assessment of the Department's efforts to ensure that recipients of Recovery Act funds
timely and properly report; reported data are reviewed by DOL in accordance with
government-wide guidance; and of our readiness to remediate any problems . . . ETA,
OSHA and OASAM — with oversight by the Department — have undertaken substantial
measures to give clear and ample guidance to recipients, put procedures in place to
monitor compliance, and follow up with ARRA fund recipients as necessary. Proof of the
effectiveness of these measures is in the results-all ARRA grants and contractor
recipients registered successfully and on time, and all ARRA grants and contractor
recipients have reported on time."

The Department’s response is included in its entirety as Attachment 3.




                                         -8-
                                                                            Attachment 1



                      SCHEDULE OF RECOVERY ACT FUNDS AWARDED
                              AS OF SEPTEMBER 30, 2009
                                    <UNAUDITED>

                                  NUMBER OF    AMOUNT AWARDED     PERCENT OF
                                GRANTS AWARDED   AS OF 09/30/09 AMOUNT AWARDED
           GRANTS

ETA - BY PROGRAM
WIA Youth/Adult/Dislocated
Workers Formula                                   57       $2,903,218,012   79.13%
Employment Services                               54          396,000,000   10.79%
Older Workers                                     74          118,800,000    3.24%
Youth Build                                       75           47,024,999    1.28%
National Emergency Grant                          26           28,541,139    0.78%
Native Americans                                  78           15,073,428    0.41%
Independent Initiative                             1               98,750    0.00%
Total ETA                                        365        3,508,756,328   95.64%

OSHA - BY STATE
California                                           1           765,070     0.02%
Tennessee                                            1           300,000     0.01%
Minnesota                                            1           166,945     0.00%
Oregon                                               1           110,979     0.00%
Michigan                                             1           100,000     0.00%
New Mexico                                           1            50,000     0.00%
New Jersey                                           1             32,495    0.00%
Total OSHA                                           7         1,525,489     0.04% *

Total Grants                                     372       3,510,281,817    95.68% *

        CONTRACTS
OASAM                                            135         158,424,023     4.32%

Total Contracts                                  135         158,424,023     4.32% *




* Slight difference in percentage due to rounding.




                                                     -9-
                                                                                                                           Attachment 2


                OMB Guidance M-09-21: Recipient Reporting Timeline


   No less than 35         1 – 10 days after          11 – 21 days after end       22 – 29 days after         30 days          90 days
 days prior to the end                                                                                      after end of     after end of
                            end of Quarter                  of Quarter              end of Quarter
    of the quarter                                                                                            Quarter          Quarter

                           Prime                       Prime                      Agency                    Recipient
                         Recipients                   Recipients                 Review of                   Reports
                           & Subs                      Review                      Data                     Published
                         Enter Draft                    Data                     Submitted                     on
                                                                   4                       6                Recovery.g
                          Reporting2
                                                                                                                ov 8
 Agency, Prime                                                  Prime
   and Sub                          Initial                   Recipients                   Prime                                    Next
   Recipient                       Submis-                     & Subs                    Recipients                             quarterly
  Registration                       sion                       Make                      & Subs                                reporting
                                                              Corrections                  Make                                    cycle
                   1                            3                                        Corrections                              begins-
                                                                            5                                                    updates
                                   10 days
                                                                                                        7                       reflected
                                   after end
                                  of Quarter                                                                                     cumula-
                                                      Agency “View Only”        Agency Comment Period                              tively
                                                                                                                                            9
                                               Recipient Report Adjustments Possible

                                       Draft                      Initial                      Final           Published
 Report Status:                                               Submission                  Submission




Source: Office of Management and Budget




                                                                       - 10 -
         Attachment 3 





- 11 -
